<html>
<title> - HIGH SCHOOL REFORM: EXAMINING STATE AND LOCAL EFFORTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                          HIGH SCHOOL REFORM:
                   EXAMINING STATE AND LOCAL EFFORTS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              May 17, 2005

                               __________

                           Serial No. 109-16

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-244                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 17, 2005.....................................     1

Statement of Members:
    Boehner, Hon. John A., Chairman, Committee on Education and 
      the Workforce..............................................     2
        Prepared statement of....................................     3
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas, prepared statement of......................    33
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    34
    Miller, Hon. George, Ranking Member, Committee on Education 
      and the Workforce..........................................     4

Statement of Witnesses:
    Romney, Hon. W. Mitt, Governor, Commonwealth of 
      Massachusetts, Boston, MA..................................     6
        Prepared statement of....................................     9
    Vilsack, Hon. Tom, Governor, State of Iowa, Des Moines, IA...    14
        Prepared statement of....................................    17



         HIGH SCHOOL REFORM: EXAMINING STATE AND LOCAL EFFORTS

                              ----------                              


                         Tuesday, May 17, 2005

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 10:06 a.m., in room 
2175, Rayburn House Office Building, Hon. John A. Boehner 
(Chairman of the Committee) presiding.
    Present: Representatives Boehner, Petri, McKeon, Castle, 
Tiberi, Osborne, Kline, Marchant, Fortuno, Boustany, Foxx, 
Drake, Kuhl, Miller, Kildee, Payne, Woolsey, Hinojosa, 
McCarthy, Tierney, Kind, Kucinich, Holt, McCollum, Van Hollen, 
Ryan, and Bishop.
    Staff Present: Amanda Farris, Professional Staff Member; 
Kevin Frank, Professional Staff Member; Jessica Gross, 
Legislative Assistant; Lucy House, Legislative Assistant; Sally 
Lovejoy, Director of Education and Human Resources Policy; 
Krisann Pearce, Deputy Director of Education and Human 
Resources Policy; Deborah Emerson Samantar, Committee Clerk/
Intern Coordinator; Ellynne Bannon, Minority Legislative 
Associate/Education; Alice Cain, Minority Legislative 
Associate/Education; Lloyd Horwich, Minority Legislative 
Associate/Education; Ricardo Martinez, Minority Legislative 
Associate/Education; Alex Nock, Minority Legislative Associate/
Education; Joe Novotny, Minority Legislative Associate/
Education; and Tom Kiley, Press Secretary.
    Chairman Boehner. A quorum being present, the Committee on 
Education and the Workforce will come to order. We are holding 
this hearing here today to hold testimony on High School 
Reform, Examining State and Local Efforts.
    Under the Committee rules, opening statements are limited 
to the Chairman and Ranking Member. If other members have 
statements, we will hold them for submission to the hearing 
record, and with that I would ask unanimous consent for the 
hearing record to remain open for 14 days to allow member 
statements and other extraneous material referred to during 
today's hearing to be submitted for the official record.
    Without objection, so ordered.
    Good morning, Governor Romney. Good morning, Governor 
Vilsack--Vilsack. It is not like I don't know what your name 
is. Just a little early this morning. I want to thank both of 
you for coming and joining us today.

   STATEMENT OF HON. JOHN A. BOEHNER, CHAIRMAN, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Today is the first in a series of hearings our Committee 
will hold to examine State and local efforts to strengthen 
education at the high school level.
    In States and communities across America, there is growing 
concern about how well high schools are preparing young people 
to succeed. Many Governors have committed to finding ways to 
new and reform secondary education, but many in the private 
sector are joining in this effort sponsoring and implementing 
innovative programs in our schools that can foster success. 
President Bush has outlined a plan that would expand the No 
Child Left Behind Act at the high school level to further 
support this goal.
    I want to commend the President for putting the issue of 
high school reform on the national agenda. This President has 
always been willing to challenge both political parties to do 
what he believes is needed for the good of American students 
and their schools. The President's proposal has sparked a 
healthy debate. Parents, student, teachers and taxpayers are 
the beneficiary of that debate.
    I have always believed the Federal Government's role in 
education should be limited. Some of my fellow conservatives 
give me a funny look when I say that knowing that I was the 
Chairman of the Committee in the past that passed the No Child 
Left Behind Act. But No Child Left Behind was necessary and 
justified because the Federal Government was already spending 
tens of billions of dollars a year in K-12 education before 
NCLB was enacted and the Federal Government wasn't demanding 
results for children in return. Well, my goodness, what do we 
have here?
    For those of you that may not know, my friend over here 
from California, Mr. Miller--it happens to be his 60th birthday 
today. So I will lead the famous Boehner birthday song. It is 
pretty simple so if you don't know the first verse, you will 
get it the second time.
    This is your birthday song. It doesn't last too long. Hey.
    I think you ought to remember that, so join in.
    This is your birthday song. It doesn't last too long. Hey.
    Happy birthday, George.
    More proof that Mr. Miller has a lot of hot air.
    Mr. Miller. You were talking about No Child Left Behind, 
what? No. Mr. Chairman, thank you very much. That is very 
considerate of you. We could have done without the singing, 
however, but thank you. It is a joyous birthday.
    Chairman Boehner. All right. Back to work.
    Today the debate focuses on not whether No Child Left 
Behind is needed, but on whether it should be expanded at the 
high school level, and those are two definitely separate 
issues.
    We clearly need high schools that equip students with the 
knowledge they need to succeed after graduation, whether their 
next stop is college or the workforce. It is pretty clear that 
the current system isn't really getting the job done very well. 
That doesn't necessarily mean the solution to the problem 
should be driven from Washington, DC, and it doesn't 
necessarily mean No Child Left Behind ought to be expanded.
    I will be perfectly frank. I am a big supporter of No Child 
Left Behind. Because I am a supporter, I have doubts about the 
idea of expanding it at this time. I am not sure we are ready 
to require States to do more under No Child Left Behind, at a 
time when some are still unfortunately seeking to do less. I 
think we need to take a look at what States and communities are 
already doing proactively to transform their high schools and 
ask whether additional Federal requirements are even justified.
    A number of our Nation's Governors have joined President 
Bush in calling for stronger high schools. We are honored to 
have two of them here today with us to talk about the things 
that some States are doing on their own to--on their own 
initiatives to strengthen secondary education.
    While not all States and school districts are happy about 
No Child Left Behind, it is notable that not a single State 
chose to join the National Education Association in its recent 
lawsuit against the law. The Bush Administration has been doing 
its part as well, reaching out to States and helping them to 
make No Child Left Behind a success.
    Mr. Miller and I jointly thanked Secretary Spellings last 
month for this approach. As we said in our joint statement, 
flexibility applied consistently and fairly among the States, 
will quell a good deal of the controversy that surrounds the 
law and bring huge benefits to American schools and students.
    Now this positive collaboration amongst the States and the 
Federal Government is the key to closing the achievement gap 
between disadvantaged students and their nonadvantaged students 
in our public schools. This hard-won cold collaboration is 
still emerging, and it is still very delicate. Drastic actions 
by any party could cause the collaboration to unravel.
    Today we want to explore the issue of high school reform in 
its context. We want to hear about the things that States and 
communities are already doing voluntarily to transform American 
high schools, because we have heard great things are starting 
to happen. I can't think of two more qualified people to bring 
us up to date on this topic than our two honored guests today, 
and we are looking forward to your testimony.
    [The prepared statement of Chairman Boehner follows:]

Statement of Hon. John A. Boehner, Chairman, Committee on Education and 
                             the Workforce

    Governors, thank you for taking time out of your busy schedules to 
be here.
    Today is the first in a series of hearings our Committee will hold 
to examine state and local efforts to strengthen education at the high 
school level.
    In states and communities across America, there is growing concern 
about how well high schools are preparing young people to succeed. Many 
governors have committed to finding ways to renew and reform secondary 
education. Many in the private sector are joining this effort, 
sponsoring and implementing innovative programs in our schools that can 
foster success. President Bush has outlined a plan that would expand 
the No Child Left Behind Act at the high school level to further 
support this goal.
    I want to commend the President for putting the issue of high 
school reform on the national agenda. This President has always been 
willing to challenge both political parties to do what he believes is 
needed for the good of American students and their schools. The 
President's proposal has sparked a healthy debate. Parents, students, 
teachers, and taxpayers are the beneficiaries of that debate.
    I've always believed the federal government's role in education 
should be limited. Some of my fellow conservatives give me a funny look 
when I say that, knowing I was the chairman of the committee that 
passed the President's No Child Left Behind Act. But No Child Left 
Behind was necessary and justified because the federal government was 
already spending billions of dollars a year on K-12 education before 
NCLB was enacted, and the federal government wasn't demanding results 
for children in return.
    Today the debate focuses not on whether No Child Left Behind is 
needed, but on whether it should be expanded at the high school level. 
And those are definitely two different issues.
    We clearly need high schools that equip students with the knowledge 
they need to succeed after graduation, whether their next step is 
college or the workforce. And it's pretty clear that the current system 
isn't getting the job done. But that doesn't necessarily mean the 
solution to the problem should be driven from Washington. And it 
doesn't necessarily mean No Child Left Behind ought to be expanded.
    I'll be perfectly frank: I'm a supporter of No Child Left Behind. 
And because I'm a supporter, I have doubts about the idea of expanding 
it at this time. I'm not sure we're ready to require states to do more 
under No Child Left Behind at a time when some are still seeking, 
unfortunately, to do less. I think we need to take a look at what 
states and communities are already doing proactively to transform high 
schools, and ask whether additional federal requirements are even 
justified.
    A number of our nation's governors have joined President Bush in 
calling for stronger high schools. We're honored to have two of them 
here with us today to talk about the things some states are doing on 
their own initiative to strengthen secondary education.
    While not all states and school districts are happy about No Child 
Left Behind, it's notable that not a single state chose to join the 
National Education Association in its recent lawsuit against the law. 
The Bush Administration has been doing its part as well, reaching out 
to the states and helping them make the No Child Left Behind Act a 
success. Mr. Miller and I jointly thanked Secretary Spellings last 
month for this approach. As we said in a joint statement: 
``Flexibility--applied consistently and fairly among the states--will 
quell a good deal of the controversy that surrounds the law and bring 
huge benefits to America's schools and students.''
    This positive collaboration among the states and the federal 
government is the key to closing the achievement gap between 
disadvantaged students and non-disadvantaged students in our public 
schools. This hard-won collaboration is still emerging, and it's still 
very delicate. Drastic actions by any party could cause the 
collaboration to unravel.
    Today we want to explore the issue of high school reform in this 
context. We want to hear about the things states and communities are 
already doing voluntarily to transform American high schools, because 
we've heard great things are starting to happen. I can't think of two 
people more qualified to bring us up to speed on that topic than our 
two honored guests. We're looking forward to your testimony. So without 
further delay, I would turn to Mr. Miller for any opening statement he 
may wish to make.
                                 ______
                                 
    Chairman Boehner. So without any further delay, let me 
yield to my friend, the birthday boy, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman, and to further restore 
your credibility in your caucus, I want to associate myself 
with your remarks.
    Chairman Boehner. I appreciate all the help.

 STATEMENT OF HON. GEORGE MILLER, RANKING MEMBER, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Mr. Miller. I do believe that we are thinking on the same--
in the same vein on this issue. Obviously we share the concern 
of many when we look at the achievements of our high school 
students in reading and math and the fact that it has not kept 
up with the improvements that we are starting to see in the 
elementary school, and the fact that we see reports such as 
that from the Education Trust in secondary, which found high 
school achievement is lagging and the achievement gap remains 
wide.
    The Latino-white gap has grown or stayed the same for 
reading and math in most States than it has narrowed in the 
past few years. The same is true for the gap between poor and 
nonpoor students. These are very troubling items.
    But I do agree with you. I do not believe that concerns for 
these problems would be answered by applying No Child Left 
Behind to the high schools. While many States and districts are 
struggling to meet the goals of No Child Left Behind, we know 
that resources are difficult for the States, for the districts, 
and I do not believe that we should saddle them with those 
additional requirements.
    What I do believe--and I believe this is consistent, Mr. 
Chairman, with what you have said--I do believe we should take 
this opportunity to learn from the States to use the States as 
laboratories for experimentation, for efforts, to improve the 
performance of our high school students to make our high 
schools more relevant to the needs of those students, both in 
the workplace and in pursuing higher education goals of those 
same students.
    I think that we could build on and we should try to build 
on the effort between the collaboration of the Governors and 
the philanthropic communities and others who are concerned, the 
business communities who are concerned about the relevance and 
the quality of the high school experience for our students.
    I am excited to see that States are taking it upon 
themselves to set additional high standards who have 
participated in a number of programs, the diploma--the American 
Diploma Project, which starts to align standards, set higher 
standards for all students in terms of the courses they take.
    But I think we have a great deal to learn before we would 
come along, especially with the budget concerns that we have in 
front of this Congress and start to lay down a whole new set of 
requirements at the high school level without commensurate 
resources. It is very clear that the Congress is not going to 
provide those resources by dismantling the Perkins vocational 
programs, and we have made that clear in this Committee. I 
think both Houses of the Congress have made that clear.
    So this hearing is very timely and very important in terms 
of the kinds of efforts that we can participate and to 
encourage, to respond to and to hopefully grow those efforts by 
the Governors and by the private sector to develop pathways to 
the future for our high schools, for our high school students, 
for those who teach in them and certainly for our economy.
    I look forward to hearing from our witnesses this morning 
and thank the witnesses for their participation and their 
leadership in this issue.
    Chairman Boehner. It is my pleasure to introduce our two 
Governors today. Our first witness today will be Governor Mitt 
Romney. Governor Romney has served as the Governor of the 
Commonwealth of Massachusetts since 2003. Prior to becoming 
Governor, he was the president and CEO of the Salt Lake City 
Organizing Committee for the U.S. Olympic Games there.
    Governor Romney has been deeply involved in community and 
civic affairs serving extensively in his church and numerous 
charities including City Year, Boy Scouts and the Points of 
Light Foundation. What is relevant to today's hearing, Governor 
Romney has led the Commonwealth of Massachusetts in high school 
reform efforts.
    He gave strong educational effort for reform on the high 
school legislation and has entered legislation to help schools 
achieve a more rigorous high school curriculum and increased 
opportunity for post-secondary education for all students in 
Massachusetts.
    Then we will hear from Governor Tom Vilsack. Governor 
Vilsack was first elected Governor of the State of Iowa in 1998 
and was reelected to a second term in 2002. Governor Vilsack 
was elected to the Iowa Senate in 1982 and served as the mayor 
of Mount Pleasant, Iowa before that.
    Governor Vilsack is the immediate past Chair of the 
Democratic Governors Association and a member of the National 
Governors Association Executive Committee. Governor Vilsack has 
played a large role in the improvement of high schools in the 
State of Iowa.
    He has entered legislation to support the efforts of 
schools to provide quality teachers to every classroom. He 
continues to encourage all stakeholders in education to take 
part in reforming their high schools.
    With that, Governor Romney, you may begin.

  STATEMENT OF HON. W. MITT ROMNEY, GOVERNOR, COMMONWEALTH OF 
                   MASSACHUSETTS, BOSTON, MA

    Governor Romney. Thank you, Mr. Chairman, thank you also 
Mr. Miller. Happy birthday. I would express appreciation also 
to Congressman Tierney from my home State for being here and 
appreciate his work on behalf of education.
    There are a number of comments that I made in my written 
testimony I hope they could be included in the record for this 
session, but I might offer some oral comments as well, if that 
is acceptable.
    Clearly there are a number of reasons that we need to 
consider ways to improve education. Let me mention two in 
particular. First, urban schools are failing, and 
disproportionately, there are failing minority students who are 
being left behind. Calling this an achievement gap is a polite 
way of saying that minority kids are getting an inferior 
education, and they are going to get inferior jobs as a result 
of that. Inferior education in our urban schools is the civil 
rights issue of our generation.
    There is a second reason. America's schools generally are 
failing to keep up with schools around the world. That means 
that America's youth will not be competitive, and they can't be 
expected to fulfill the kinds of opportunities and the best 
jobs that they would hope for. Beyond the sad consequence for 
them as individuals are the alarming implications of that for 
our Nation.
    When I was in high school, a very fortunate thing happened. 
Sputnik was launched. It woke up America's leaders. President 
Kennedy called the Nation to boost science and math education, 
to produce more engineers, to put a man on the moon, all of 
these calculated to motivate and educate America's youth, to 
keep America from falling hopelessly behind. Our generation 
hasn't had its Sputnik moment yet. I am convinced it will. It 
will probably come from Asia.
    One of the great developments of our time is the economic 
emergence of China, India and other nations of Asia. Their 
poverty is thankfully being reduced. The opportunity for our 
employers is extraordinary, but so are the challenges. Asia is 
not content making Christmas tree ornaments. They want to build 
commercial jets, MRI machines, they want to create software and 
develop new pharmaceuticals. They are planning to become the 
innovation and technological center of the world. They want it 
to move from America to Asia. And it is on its way.
    Corporate investment in Asia is exploding, CEOs in my high-
tech State tell me that they plan to transfer major operations 
there, not for the low cost of labor, but because of the 
plentiful supply of highly educated and highly motivated 
technologically skilled workers. Bill Gates reports that 
Microsoft's new ideas increasingly are coming from their 
operations in Beijing.
    We take comfort in the fact as a Nation that we spend many 
times as much as Asian nations do on R&D. But don't forget, 
they are paying their engineers about 1/10 of the amount that 
we pay ours. So comparing dollars is not the way to compare 
investment in research and technology, engineering and 
development.
    Two decades ago, American citizens and Asian citizens 
earned about the same number of physical science and 
engineering degrees, PhD's annually--about 5,000 a year. Today, 
4,400 U.S. citizens will earn their PhDs. 24,900 Asian citizens 
will earn those PhDs.
    America, and America's youth are less and less competitive. 
Yes, fixing our schools is a social responsibility. It is also 
a national economic and national security necessity.
    As you know, Massachusetts has some of the highest student 
scores in the Nation. Our kids regularly rank at or near the 
top on virtually all national exams. We have had the equivalent 
of No Child Left Behind in our State for several years. It was 
passed in 1993 as part of a Statewide Education Reform Act.
    We also require our high school students to pass a State 
exam in order to graduate. Let me show you some things that we 
have learned. First, implementing an exit exam required for 
graduation has had an enormous impact and a very positive one. 
Average scores rose sharply when the test counted, and they 
continued to rise today. On the left, you will see a chart. The 
red bars show--you are not going to read those numbers very 
well, but you will get the drift. The red bars show the success 
rates on our graduation exam when the exam was given only for 
purposes of practice, and that would be in the years prior to 
2003.
    In 2003, we began giving the test for keeps, and you had to 
pass it in order to graduate. There was a 20-point increase in 
the success rate when kids realized that tests counted and when 
they began working to make sure that they could pass that test. 
You will note that the bars continue to rise. Today some 96 
percent of our kids will pass our graduation exit exam.
    There is something else that we learned, and that is 
putting in place this exam significantly narrowed the disparity 
between scores of whites and nonwhites. The 2-bar groups at the 
left show Hispanic and African-American students. The blue 
portion of the bar shows their success in 2003. The red shows 
their success rate in 2006. On the right-hand side, you see the 
white scores.
    You will note that the white scores continued to exceed 
those of nonwhite students. But you will also note that the 
progress made among the nonwhite students is a great deal more 
significant. The gap between scores has been closed quite 
significantly. I note that the teachers union in our State 
fought this graduation exam tooth and nail, but it is working 
for our kids. More and more of our kids, particularly our 
minority kids, are seeing the benefits of rigorous standards, 
rigorously applied.
    Second, most of our urban schools are doing far worse than 
our State average. Not all of them, however. In fact, there are 
huge disparities between schools in the same district, where 
the amount spent per student is the same and the socioeconomic 
factors are the same. Let me show you an example. This comes 
from the city of Springfield, Massachusetts.
    The group of charts at the top represent one elementary 
school. The pie charts show on the far left-hand side the 
percentage of individuals that are low income--and that is 
about 85 percent are low income--the pie chart in the middle 
shows the percent that are receiving English as a second 
language, that is almost 30 percent of the student body.
    That particular class, Washington Elementary School, has 
success rates represented by the bars on the right. A very, 
very low success rate. Single digit success rates.
    Another elementary school in the same district, same socio-
economic characteristics, has success rates as represented by 
the bar chart, below. Rates in the 80's and 90 percentages. 
These are the same students coming from the same homes with the 
same leadership at the superintendent level, receiving the same 
amount of spending per pupil, average classroom sides the same.
    What we are seeing here is dramatic differences that cannot 
be explained by the standard information. Let us get to it. I 
will get to it in a moment why we are seeing that kind of 
disparity.
    Third thing. The reason urban districts are doing more 
poorly than State average is not because of less funding. As a 
matter of fact, we spend more money per student in our urban 
districts, quite significantly, than we do on our State 
average.
    This bar chart represents every State in America. The bars 
on the right represent those States that are spending more in 
their urban districts than they are spending on their State 
average.
    The bar on the far right represents Massachusetts. We spend 
more in our urban districts than we do on average by a greater 
percentage than any other State in America, and that is what is 
represented by that chart.
    Incidentally, the district in our State that spends the 
most per student, Cambridge, it spends almost $15,000 per 
student, almost double our State average spending, scores in 
the bottom 10 percent of success rates. So spending is not 
correlating with our test scores. Success is not related within 
this band that we are measuring. It is not correlated with our 
spending.
    Fourth point. We have researched at length why some schools 
are failing in the same school district and others are 
succeeding. Again within the band that we are looking at, 
classroom size and funding don't account for the differences.
    What do? First and foremost, teachers make the difference. 
Highly qualified committed motivated and skilled teaching 
professionals are the most important factor in education. They 
are professionals. But increasingly, our teachers union insist 
that they be treated like interexchangeable, indistinguishable 
factory workers turning out widgets. If we want to improve 
education, we have to make teaching a profession again. It is 
what teachers want, and it is what our children need.
    Second, the best schools have good principles and 
superintendents. Leadership does matter. Principles need to be 
regularly evaluated, promote the best, demote or to move the 
worst.
    Third, our teachers and professionals need good information 
about the progress of the students they are teaching. You can't 
improve something or someone that you don't measure. Test kids 
regularly to see where we are failing them.
    Fourth, parental involvement. Poor schools have poor levels 
of parental involvement. I proposed a mandatory parental 
preparation before kids get into school and ongoing involvement 
thereafter as courses necessary to help our failing schools. My 
guess is that the reasons I have cited sound familiar to you. 
They are cited time and again by every group that I have seen 
that studied our education results in Massachusetts.
    Of course, they can be disputed by some groups that have a 
financial stake in one outcome or another. But in 
Massachusetts, unbiased task forces and researchers from across 
the political spectrum have reached entirely consistent 
conclusions time and again--so the national studies, the 
answers are quite clear. The question is not what should we do 
to improve education, it is whether we will have the political 
will to do it.
    Thank you, Mr. Chairman.
    [The prepared statement of Governor Romney follows:]

      Statement of Hon. W. Mitt Romney, Governor, Commonwealth of 
                       Massachusetts, Boston, MA

    Mr. Chairman, Members of the Committee,
    I want to start by commending the Committee for your decision to 
engage in what I consider to be the greatest challenge facing our 
nation--how to remain the world leader in intellectual capital. Slowly, 
yet systematically, the advantage the United States has in producing 
and retaining the thought leaders of our world has been eroded. We are, 
I believe, at an inflection point that will determine whether America 
remains a strong and viable leader in a global world economy or 
whether, like Great Britain before us, we will allow other countries to 
become the drivers of innovation while the United States slowly fades 
into a nation of shopkeepers.
    If we are to remain the global leader in innovation, we must have a 
strong educational and research and development system at every level. 
The attention that we have given to K-8 education over the last few 
years, and the attention that is now being given to early childhood 
education, provides the foundation for our high school and higher 
education systems. Now, however, it is time to turn focused attention 
on high school reform--and ensure that the pipeline of students going 
from our high schools into our colleges and universities are ready to 
compete on a world stage in the critical areas of math and science. I 
also commend the Committee for recognizing that this is neither a 
partisan nor a regional issue, but a national one, and I am pleased 
that Governor Tom Vilsack is here with me today on this panel.
    Massachusetts has been a leader in education for the past decade. 
Our efforts actually pre-dated the No Child Left Behind act, and served 
as the basis for much of that legislation. We have been called the 
``poster child of NCLB'', and I'm pleased to report that our schools in 
Massachusetts are making terrific progress, with 90% meeting or 
exceeding NCLB requirements. I applaud you for being steadfast in 
holding the nation's schools to higher standards. Today, I want to talk 
about how we might do even better.
    The progress we've made in Massachusetts is due to our landmark 
Education Reform Act of 1993. There are four major elements of that 
law: funding, standards, assessment, and accountability.
    First, to pave the way for what followed, we made a commitment to 
funding our schools in a more equitable way. We put a formula in place 
that determined a ``foundation'' or minimum level of funding for each 
student, and another formula to determine how much of that cost should 
be borne by state versus local government. Over ten years, we increased 
state aid to education in Massachusetts by $2.2 billion. This was an 
average growth rate of 8.5% per year, two to three times faster than 
the growth of the rest of state government. Even through the recent 
fiscal crisis, we have maintained our commitment to fund every 
community at that foundation level or above.
    This eliminated the gap in per pupil spending between high poverty 
and low poverty districts. According to Education Trust, Massachusetts 
now leads the country in spending more in high poverty communities, as 
this chart shows.

[GRAPHIC] [TIFF OMITTED] T1244.001

    Next, we set clear statewide standards for all students at every 
grade level. We are seen as a national leader in curriculum frameworks, 
and are proud to have set some of the highest standards in the nation.
    Then, we implemented a statewide assessment system--called the 
MCAS--that tests students on the statewide standards. This includes 
elementary schools--as in NCLB--but also high schools. Critics of 
standardized testing say it leads to ``teaching to the test,'' but we 
believe a good test is worth teaching to. Our 10th grade math exam 
tests for understanding in algebra, geometry, and statistics, among 
other areas. It includes both well-crafted multiple choice questions, 
as well as open-ended questions, where students must show their work--
just like any good classroom test. Since algebra is in many ways the 
gateway to higher learning, it is important that both middle and high 
school testing stress algebra, to drive early course-taking.
    For science and technology, we test all elementary and middle 
school students, and we are also now piloting state tests in high 
school. We offer subject tests in biology and chemistry for 10th-grade 
students who have taken these courses. We also offer state exams for 
9th and 10th graders on introductory physics and on technology and 
engineering, which I believe is quite notable. In previous generations, 
students typically took physics in grade 12, if at all, and the 
curriculum rarely featured technology and engineering. We believe our 
assessment program will start to drive instruction toward introducing 
physics at an earlier level--which is critical, since it is the basis 
of all modern science, the foundation for chemistry and biology. 
Similarly, technology and engineering will enter the curriculum--and 
help motivate students who have a natural hands-on interest in building 
and inventing things.
    Finally, and perhaps most importantly, education reform must 
feature accountability. This includes both student accountability and 
adult accountability.
    Since the class of 2003, passing the 10th-grade MCAS in both 
English and Math has been a graduation requirement, and we now have 96% 
of our high school students reaching that goal. If I had to single out 
one feature that has played the greatest role in mobilizing our system 
and focusing attention on academic achievement, particularly in 
disadvantaged districts, this would be it. We faced a lot of 
opposition, particularly from the teachers' unions and some suburban 
districts, when we first implemented the test as a graduation 
requirement, but thanks to a firm bipartisan commitment by Democratic 
legislative leaders and Republican governors, we stayed the course.
    This took some guts--and a lot of faith in our students and 
teachers--because the early pilot test results were not promising. As 
this chart shows, half the students were failing the math exam. But in 
the run-up to 2001, when the 10th-grade tests started counting for 
graduation, things changed. Students and teachers focused their 
efforts; schools changed practices in myriad ways, including such 
measures as double-blocks in math and English. The state appropriated 
tens of millions of dollars for remedial programs--including after-
school and summer programs--to make up for deficiencies that existed 
before standards took hold. The result of this concerted effort was a 
dramatic improvement, particularly in our urban districts. As you can 
see in this chart, there was a huge 20-percentage point jump in 2001, 
when students, teachers, and the state knew it was going to matter. The 
picture is similar for English.

[GRAPHIC] [TIFF OMITTED] T1244.002

    So, I would urge other states that are facing similar challenges to 
stay the course. NCLB does not require you to institute a graduation 
requirement, but it has proven to be critical to improvement in 
Massachusetts.
    Realizing that other skills besides English and math are critical, 
especially in my state's high tech economy, I recently asked our Board 
of Education to add science to our high school graduation requirements, 
and the Class of 2010 will be the first that must pass at least one of 
the science subject exams I mentioned, in order to graduate.
    In addition to student accountability, of course we need a system 
for adult accountability, to track both school and district 
performance. It was one of the first approved under NCLB, just a year 
after passage of the law, and is now a national model.
    With all this good news, it might be tempting to declare victory, 
but while we may be leading the country, the bad news is we're lagging 
the world.
    Compared to other industrialized countries, our Massachusetts 
graduation requirement is the equivalent of an eighth grade education. 
On an international scorecard, U.S. 4th graders start out in the middle 
of the pack on math, then fall to the bottom third by 8th grade, and by 
12th grade we're among the worst 10%. As a recent story in Education 
Week put it, if this were the US medals count in the Olympics, it would 
be a national embarrassment.
    Amazingly, these rankings don't even include the countries that are 
our real competition. India and China, in the words of Tom Friedman's 
latest book, just brought three billion more people onto the playing 
field.
    If we are going to compete in the global economy, we have to set 
our education goals higher. Gone are the days of a manufacturing-based 
economy when an eighth grade education was enough. The new millennium 
demands a higher educational standard for our children, and the speed 
with which we reach that standard will define the future of this 
country.
    Sadly, I am not the first to say this. In fact, very similar calls 
for education reform are almost constant, dating back to the 1800's. 
The difference is the pace of change. Until now, we could afford to 
move slowly, to tinker, to experiment, to work around the edges of our 
educational system. Today, our economy is transforming itself at a 
blistering pace, and our schools are stuck at the starting line.
    So what do we do? Some will say we need to spend more money, and 
certainly that can help. In Massachusetts we brought all low-spending 
districts up to a foundation level of spending, which helped those 
districts achieve the results I've described. But beyond a certain 
point, we've found that, after controlling for demographics, there is 
no correlation between spending and student performance.
    For example, the city of Cambridge spends almost twice the state 
average on each of their students, and they still score in the bottom 
10%.
    So, you might say, well then it's the demographics. Poor and 
minority kids in urban communities just can't be expected to do as well 
as their suburban counterparts.
    Well, we've found that that is simply not the case either. In fact, 
in one Massachusetts community, and in many others just like it, you 
can find two schools with similar demographics and similar funding that 
are getting dramatically different results. This chart shows one 
example of this, from the city of Springfield.

[GRAPHIC] [TIFF OMITTED] T1244.003

    One school has just 3% of its students scoring proficient in math, 
but the other, with very similar students, has 74%. Similarly, at the 
high school level, Springfield's Sabis International Charter School has 
reached over 60% proficiency in math. We have a few other urban high 
schools that are achieving 90% math proficiency rates, despite high 
concentrations of poverty. This includes both district and charter 
schools, such as Worcester's University Park Campus School and Boston's 
Academy of the Pacific Rim charter school. We have to ask what leads to 
this high level of achievement. What secrets to success do these 
schools hold?
    The interesting thing is they're not really secrets. We've found 
that most studies of successful schools--both district and charter 
schools--have five key criteria in common, and they're not going to 
surprise you. Good leaders, great teachers, data-driven decision-
making, parent involvement, and high expectations for all students are 
at the top of every list.
    These may seem obvious, but in too many districts they're not the 
focus. The challenge is making sure schools know that those are the 
things that will make the difference, and getting the management tools 
and skilled staff in place to focus on them.
    First, good leaders. I've seen a lot of organizations rise and 
fall, and I'll tell you that their fortunes follow the ability of the 
leader. Schools are desperately in need of qualified, competent people 
who are front and center focusing on the goals of that school's 
students, and making sure that message gets through to every person in 
that school- the teachers, the kids, the librarians, the guidance 
counselors. Everyone needs to know what's expected of them to make that 
school successful and help every kid reach their full potential. But 
high expectations are only as good as the manager's ability to make 
necessary changes, and unless we give school managers the tools to lead 
their schools--freedom from overly prescriptive union contracts and 
excessive bureaucratic constraints--we can't expect to attract the best 
people.
    Next, great teachers, and the same really goes for them. If we 
don't give them the opportunities and rewards they expect and deserve, 
we can't expect to attract and retain the most talented among us to 
teach. A recent report by the Education Trust concluded that ``money 
alone will not ensure that more students reach [high] standards--or 
that we will close the achievement gap . . . states and schools need to 
reform the way teachers are educated, assigned, evaluated, and paid.'' 
I couldn't agree more. We have a teaching crisis in America, both in 
terms of quantity and quality. In Massachusetts, almost a third of our 
teachers will retire in the next five years, and we just don't have the 
people coming in to replace them.
    We especially need to improve the math and science preparation of 
our teachers. Massachusetts has raised standards for teacher licensure, 
through testing for subject knowledge, particularly for middle and high 
school teachers. And we have brought mid-career high-tech professionals 
into the classroom, both as career-changers and as resources for our 
teachers. But for elementary teachers, where the focus has rightly been 
on literacy instruction, subject knowledge in math and science is often 
weak. We need to bring that up through strong math and science courses 
appropriate for prospective elementary school teachers. Some of our 
arts and sciences faculty have begun to develop these courses, but we 
need all of our new teachers to take them. It's not good enough for our 
4th-graders to run in the middle of the international pack: we need 
them to be tops in math and science, to have a good start for the rest 
of the race.
    Teaching is less and less attractive to bright students fresh out 
of college--particularly in math and science--who are used to working 
in a team-oriented, performance-driven environment. Our schools today 
are set up in a manufacturing model, where teachers teach in isolation 
from their colleagues, aren't given the support or information they 
need to be successful, and have no opportunities for advancement or 
better pay unless they leave the classroom for administration. We've 
actually set up a system that discourages new teachers from coming in, 
and only provides incentives for the best teachers to leave the 
classroom. To attract and retain better teachers, we need to make 
teaching a profession again. We need to reward performance, and give 
teachers opportunities to take on new responsibilities without having 
to leave the classroom altogether.
    Teachers have proven that when given the opportunity to work with 
school leaders, in devising creative solutions, free from rigid work 
rules, they will set high performance standards for themselves and 
their colleagues and put the needs of their students first. Yet the 
structure the teaching profession operates under in this country treats 
them as if they are line employees at a manufacturing plant turning out 
uniform widgets, rather than professionals managing complex and ever-
changing responsibilities. In Boston, we recently reached a new low on 
this front. Even after 97% of the Gardner School's teachers voted to 
convert their school to a form of charter school, the teachers' union 
vetoed the change. Without explanation, the union President blocked 
what the whole faculty of that school had agreed was best for its 
students. I wonder how we can let this continue. I wonder how any union 
contract can provide that kind of authority. I wonder why union 
negotiations never include hot debates about how well we want our 
students to do that year, or what level of performance we expect from 
our teachers. Instead, we spend endless hours bargaining over exactly 
what minute of the day teachers will stop work, or what step or lane in 
the salary grid they can reach by what year. These contracts give 
teachers no flexibility to adapt to the unique needs of their students 
or school and no incentive to excel. The profession of teaching has 
slowly been transformed into just another job--something we can't 
afford if we are to retain our lead against our global competitors.
    The third element of success is good data, and I know this will 
seem mundane, but it amazes me that something we see as fundamental in 
making business decisions is not viewed as equally critical in 
education. Teachers need better information in a real-time way to help 
them gear their instruction to each of their students. We have systems 
now that can tell you what level a student comes in at, where she 
should be at the end of the year, and how well she's hitting all the 
marks in between. Good data is important for all our students, 
including our best and brightest students, so teachers are aware of 
their potential and don't neglect them in an effort to get other kids 
over the minimum standard.
    Fourth, parents are every child's first teacher, and their 
involvement is critical to every student's success. In Massachusetts, 
I've proposed mandatory parental involvement through our state's child 
care system, and encouraged schools to find other ways to get the right 
messages out there- what kind of TV to watch, how important it is to 
read to your children, and to help them with their homework.
    Finally, and most importantly, we have to set high expectations for 
all of our children, and make sure those expectations are understood 
and aligned from the Superintendent right down to the classroom 
teacher. We've added another reason to reach higher in Massachusetts 
recently. I urged our Board of Higher Education to create the John and 
Abigail Adams Scholarship, and now every high school student who scores 
in the top 25% of the state on the MCAS, and in the top 25% for their 
school, can go to any state college or the University of Massachusetts 
tuition-free. These scholarships will give all students a reason to try 
harder, and reward our best and brightest for their achievements.
    We have made great strides in Massachusetts over the past 10 years 
in ensuring that all students reach a minimum standard. We have 
successfully raised the floor, but the time has come to raise the 
ceiling, and start focusing as much effort on our highest achievers 
``and also those in the middle--as we have on our lowest. We need 
better leaders, more opportunities for teachers to be supported and 
rewarded for the work they do, and more parents getting involved. We 
need every student to have all the skills they need to get them ready 
for the challenges of the new economy.
    Thank you, and I'd be happy to take questions.
                                 ______
                                 
    Chairman Boehner. Governor Vilsack.

  STATEMENT OF HON. TOM VILSACK, GOVERNOR, STATE OF IOWA, DES 
                           MOINES, IA

    Governor Vilsack. Good morning, Mr. Chairman and members of 
the Committee. I am Tom Vilsack, Governor of Iowa, and I want 
to thank you for the opportunity to testify about the critical 
issues facing the Nation's high schools: The connection between 
high school rigor, relevance and relationships and the 
important role teacher quality has in leading the 
transformation of high schools from the static institutions to 
dynamic, vibrant learning centers.
    The case for change in America's high school is well 
documented. My colleague, Governor Romney, has just made a 
passionate case. Our graduation rate is too low. Too many 
students are struggling learners, and much of the curriculum 
needs to be revamped to better prepare our young people--not 
just to be employed, but to be informed compassionate and 
productive citizens.
    We often hear about the challenges of the digital society 
and think it is the technology that we need to keep up with. 
But actually, that is the easy part. More difficult is keeping 
up with--even anticipating--the pace at which technology 
generates change. Our world is no longer predictable or 
familiar.
    Jobs require constant adjustment and skill upgrades. So the 
challenge for high schools is to teach and develop students 
with not only a solid foundation and mastery of academic 
skills, but also skills such as critical thinking, problem-
solving, teamwork and a love of life-long learning.
    Many noteworthy organizations, including ACT, Achieve, 
numerous education experts and the National Governors 
Association, have studied the need for high school reform and 
brought forth solid recommendations based on research. Many of 
these points to the need of a challenging coursework for high 
school students.
    Most States, including my State of Iowa, have begun to 
address this issue by conducting comprehensive reviews of our 
curriculum, especially math and science, and aligning it better 
with post secondary expectations. We are also examining the 
instruction methods to determine how best to reach all 
learners.
    One of the most successful methods to provide coursework 
rigor is to provide Dual Credit, which allows students to earn 
college credits while they are still in high school. In Iowa, 
we have found that Dual Credit is especially helpful to engage 
students in their senior year in more rigorous and meaningful 
work.
    As the National Governors Association has noted, Dual 
Credit is a key factor in the alignment of secondary schools 
with post secondary or college expectations. Congress can 
influence rigor and relevance in high school by supporting Dual 
Credit initiatives, encouraging collaboration between K-12 and 
post-secondary institutions and providing sharing incentives to 
States.
    One of the additional benefits of Dual Credit is the access 
it gives students to career and technical education and 
coursework. It is important to remember that high quality 
career and technical education is simply an alternative path, 
not an inferior path, to higher level math and science we know 
will be required for jobs in the future. It is increasingly 
recognized as an essential pathway for many of our students 
providing a smoother transition from high school and post-
secondary work.
    One reason career and technical education is so successful 
and popular with students is that it provides relevance and 
practical application to student learning. It is often referred 
to as career education, because of its practical application to 
employment skills. Iowa is one of the several States that 
require career education as part of its K-12 curriculum. Many 
of our districts have cooperated with area colleges to provide 
career academies, providing high school students with advance 
and college courses in career paths such as biotechnology, the 
health sciences, agricultural science and industrial 
technology.
    Iowa also takes advantage of a successful national model, 
which I believe Representative Castle is familiar with, Jobs 
for America's Graduates. JAG is a school-to-career program 
implemented in 700 alternative high schools and community 
colleges and middle schools across the country.
    JAG's mission is to keep young people in school through 
graduation and provide workplace training and leadership 
development experiences that will lead to a meaningful 
employment or enrollment in post-secondary institutions that 
will, in turn, lead to a rewarding career. JAG's model program 
delivers a unique set of services to targeted young people in 
high school, most often the most likely to drop out, including 
12 months of postgraduate follow-up services. JAG currently 
serves 60,000 participants in 26 States.
    The documented outcomes of this model that have been 
produced are compelling and should be taken into account when 
looking for proven methods of improving academic outcomes in 
success or employment and post secondary-education.
    On average, and I remind the Committee that these are the 
youngsters most likely to drop out. The program has been able 
to achieve a 90 percent graduation rate for youth identified by 
their schools as least likely to make it. This is a remarkable 
statistic.
    Overall, the program has achieved an 80 percent success 
rate for those same young people in staying on the job or being 
enrolled in post-secondary education at the end of the 12-month 
phase. The program staff has focused completely on academic 
achievement and gaining a high school diploma. In most States, 
that also means passing the high stakes proficiency 
examinations.
    I urge decisionmakers and Congress in each State to be 
supportive of programs like JAG which can produce measurable 
cost-effective outcomes. Adding relevance to rigor is the key 
to success. Simply adding and testing the students on advanced 
physiology or trigonometry will not result in a true reform of 
high schools.
    The goal for students must not be just what to think, but 
how to think. How to apply that knowledge in a variety of 
circumstances, setting the foundation for lifelong learning. 
Relevance, teaching students why things are important, and how 
to apply and adapt information, will motivate students to 
invest the time and energy in more rigorous work that they 
need.
    Obviously we need to maintain the quality of career and 
technical education to insure that it continues to provide both 
rigor and elements. States have done this by investing funds 
from the Perkins Vocational and Technical Education Act. It is 
essential that Congress adequately fund and support the 
reauthorization of Perkins as an important component of high 
school reform, and I certainly appreciate the House's recent 
action to reauthorize Perkins.
    Both rigor and relevance depend heavily on relationships 
for success. The International Center for Leadership and 
Education points out that rigor has a tendency to increase as 
the degree of relevance and the quality of relationships 
improve. That is because students are more likely to engage in 
rigorous learning when they know that teachers, parents and 
other students actually care how well they do. They are 
motivated to try hard when they are connected, encouraged 
supported and consistent and are more likely to have higher 
expectations and goals and more likely to go to college. 
Quality teachers are the key to providing the caring and 
supportive relationships students need in high school.
    As U.S. Secretary of Education Margaret Spellings has said, 
teachers have the single biggest influence on how much and how 
well students learn. They alone have the ability to improve the 
rigor, relevance and relationships that students experience in 
the classroom. Despite the growing importance of teachers and 
their impact on students, the profession is attracting fewer 
candidates due to what many cite as declining morale in 
schools, poor working conditions and inadequate salaries.
    We must rekindle the interest in teaching and increase 
teachers' capacity to insure that our students have the very 
best instructors and role models, who not only know what to 
teach, but more importantly, how to motivate all students to 
their highest potential. These efforts will require significant 
investment in teacher preparation, recruitment, professional 
development and compensation.
    In Iowa, we have done this by investing in our Student 
Achievement/Teacher Quality/Initiative, now in its fourth year. 
The major components include new standards for teacher 
preparation programs, new teaching standards, mentoring and 
induction programs for all new teachers, minimum salaries, 
mandatory evaluations of all teachers and both individual and 
district-wide professional development plans that are research-
based and focused on district goals to increase student 
learning.
    Iowa's largest school district, Des Moines, has shown 
strong support for the teacher professional development program 
and has implemented many facets of the student teacher 
achievement initiative. Early results show marked improvement 
among its high school students, particularly in closing the 
achievement gap among struggling learners. Using the Second 
Chance Reading Program, students doubled their rate of 
improvement, often achieving 2 years gain in a single year.
    As we have seen, and as U.S. Secretary of Education 
Spellings has said, teachers are indeed the single biggest 
influence on how much and how well students learn. Our 
experience shows that investing in teachers' professional 
development will show the greatest return on investment in the 
reformation of high school rigor, relevance and relationships.
    Congress can support teachers and help them increase their 
capacity to target their instruction and reach more students by 
adequately and fully funding No Child Left Behind, especially 
those funds targeted for increased funds for professional 
development. Although most high schools across America may 
agree on why they need to change and what they need to change, 
we must not attempt to one-size-fits-all solution for high 
school reform.
    Just as each student has very individual gifts and needs, 
each school and district is unique in its strengths and 
challenges and must be allowed to develop its own plan of 
action reform and success. States look forward to working with 
Congress in developing a plan to support those local efforts.
    Mr. Chairman, I appreciate the opportunity to be here, 
thank you.
    [The prepared statement of Governor Vilsack follows:]

 Statement of Hon. Tom Vilsack, Governor, State of Iowa, Des Moines, IA

    Good morning Chairman Boehner, Ranking Member Miller and members of 
the committee. I am Tom Vilsack, governor of Iowa, and thank you for 
this opportunity to testify about the critical issues facing the 
nation's high schools: the connection between high school rigor, 
relevance and relationships, and the important role teacher quality has 
in leading the transformation of high schools from static institutions 
to dynamic, vibrant learning centers.
    The case for change in America's high schools is well documented: 
the graduation rate is too low, too many students are struggling 
learners, and much of the curriculum needs to be revamped \1\ to better 
prepare our youth--not just to become employed, but also to be 
informed, compassionate and productive citizens.
---------------------------------------------------------------------------
    \1\ See Achieve State Profiles. www.achieve.org. Also Trends in 
International Mathematics and Science Study. 2003.
---------------------------------------------------------------------------
    We often hear about the challenges of the ``digital society,'' and 
think it's the technology we need to keep up with. But that's actually 
the easy part. More difficult is keeping up with, even anticipating, 
the pace at which technology generates change. Our world is no longer 
predictable or familiar; jobs require constant adjustment and skill 
upgrades. And so the challenge for high schools is to teach and develop 
students with not only a solid foundation and mastery of academic 
skills, but also skills such as critical thinking, problem solving, 
teamwork, and lifelong learning.
    Many noteworthy organizations--including ACT, Achieve, numerous 
education experts and the National Governors Association--have studied 
the need for high school reform and brought forth solid recommendations 
based on research.\2\ Many of these point to the need for more 
challenging coursework for high school students.
---------------------------------------------------------------------------
    \2\ ``Ready or Not: Creating a High School Diploma That Counts'' 
2004.Achieve. ``Getting it Done: Ten Steps to a State Action Agenda.'' 
2005. National Governors Association.
---------------------------------------------------------------------------
    Most states, including Iowa, have begun to address this issue by 
conducting comprehensive reviews of our curriculum, especially math and 
science, and aligning it with post secondary expectations. We also are 
examining the instruction methods to determine how best to reach all 
learners.
    One of the most successful methods to provide coursework rigor is 
Dual Credit, which allows students to earn college credits while they 
are still in high school. In Iowa, we have found that Dual Credit is 
especially helpful to engage students in their senior year in rigorous 
and meaningful work. As the National Governors Association has noted, 
Dual Credit is a key factor in the alignment of secondary schools with 
postsecondary or college expectations. Congress can influence rigor and 
relevance in high schools by supporting Dual Credit initiatives, 
encouraging collaboration between K-12 and postsecondary institutions, 
and providing sharing incentives to states.
    One of the additional benefits of Dual Credit is the access it 
gives students to Career and Technical Education coursework. It is 
important to remember that high quality Career and Technical Education 
is simply an alternate path--not an inferior path--to the higher-level 
math and science we know will be required of the jobs of the future. It 
is increasingly recognized as an essential pathway for many of our 
students, providing a smooth transition between high school and 
postsecondary work.
    One reason Career and Technical Education is so successful and 
popular with students is it provides relevance and practical 
application to student learning. It often is referred to as ``career 
education'' because of its practical application to employment skills. 
Iowa is one of several states that require career education as part of 
its K-12 curriculum. Many of our districts have cooperated with area 
colleges to provide Career Academies, providing high school students 
with advanced and college courses in career paths such as 
biotechnology, the health sciences, agricultural science, and 
industrial technology.
    Adding relevance to rigor is the key to success. Simply adding--and 
testing the students on--advanced physiology or trigonometry will not 
amount to true reform of high schools. The goal for students must be 
not just what to think, but how to think, how to apply that knowledge 
in a variety of circumstances, setting the foundation for lifelong 
learning. Relevance--teaching students why things are important, and to 
apply and adapt information--will motivate students to invest their 
time and energy in the more rigorous work they need.
    Obviously, we need to maintain the quality of Career and Technical 
Education to ensure it continues to provide both rigor and relevance. 
States have done this by investing funds from the Perkins Vocational 
and Technical Education Act (Perkins). It is essential that Congress 
adequately fund and support the reauthorization of Perkins as an 
important component of high school reform. I appreciate the House 
recently acted to reauthorize Perkins.
    Both rigor and relevance depend heavily on relationships for 
success. The International Center for Leadership in Education points 
out that rigor has a tendency to increase as the degree of relevance 
and the quality of relationships improve.\3\ That's because students 
are more likely to engage in rigorous learning when they know that 
teachers, parents, and other students actually care how well they do. 
They are motivated to try hard when they are connected, encouraged, 
supported, and assisted; and are more likely to have higher 
expectations and goals, and more likely to go to college.\4\
---------------------------------------------------------------------------
    \3\ ``Reforming American High Schools--Why, What, and How.'' 2004. 
Willard Daggett, President, International Center for Leadership in 
Education.
    \4\ ``School Relationships Foster Success for African American 
Students.'' 2002. George L. Wimbry.
---------------------------------------------------------------------------
    Quality teachers are the key to providing the caring and supportive 
relationships students need in high school. As US Secretary of 
Education Margaret Spellings has said: Teachers have the single biggest 
influence on how much and how well students learn. They alone have the 
ability to improve the rigor, relevance and relationships that students 
experience in the classroom.
    Despite the growing importance of teachers and their impact on 
students, the profession is attracting fewer candidates due to what 
many cite as declining morale in schools, poor working conditions and 
inadequate salaries.
    We must rekindle the interest in teaching and increase teachers' 
capacity to ensure our students have the very best instructors and role 
models who know not only what to teach but also how to motivate ALL 
students to achieve to their highest potential. These efforts will 
require significant investments in teacher preparation, recruitment, 
professional development, and compensation.
    In Iowa, we have done this by investing in our Student Achievement/
Teacher Quality initiative, \5\ now in its fourth year. The major 
components include new standards for teacher preparation programs, new 
teaching standards, mentoring and induction programs for all new 
teachers, minimum salaries, mandatory evaluations for all teachers, and 
both individual and district-wide professional development plans that 
are research based and focused on district goals to increase student 
learning.
---------------------------------------------------------------------------
    \5\ The Student Achievement Teacher Quality legislation and 
supporting documents can be found at http://www.state.ia.us/educate/
ecese/tqt/tc/index.html.
---------------------------------------------------------------------------
    Iowa's largest school district, Des Moines, has shown strong 
support for teacher professional development and has implemented many 
facets of the Student Achievement Teacher Quality initiative. Early 
results show marked improvement among its high school achievement, 
particularly in closing the achievement gaps among struggling learners. 
Using the Second Chance Reading program, students doubled their rate of 
improvement, often achieving two years gain in a single year.
    We have seen first hand, as US Secretary of Education Spellings has 
said, that teachers have the single biggest influence on how much and 
how well students learn, and our experience shows that investing in 
teachers' professional development will show the greatest return on the 
investment in reformation of high school rigor, relevance and 
relationships.
    Congress can support teachers and help them increase their capacity 
to target their instruction and reach more students by fully funding No 
Child Left Behind, specifically targeting increased funds for 
professional development.
    Although most high schools across America may agree on why they 
need to change and what they need to change, we must not attempt a one-
size-fits-all solution for high school reform. Just as each student has 
very individual gifts and needs, each school and each district is 
unique in its strengths and challenges, and must be allowed to develop 
its own plan for action, reform and success. States look forward to 
working with Congress in developing a plan to support these local 
efforts.
                                 ______
                                 
    Chairman Boehner. Let me thank both of our Governors for 
your testimony and your assistance as we attempt to plow ahead 
in terms of what role, if any, the Federal Government should 
play in the reform of our high schools.
    In February of this year Achieve, Inc., a bipartisan, 
nonprofit organization that helps States improve their 
education systems, announced a network of 13 States committed 
to high school reform. Massachusetts happens to be one of them. 
Can you tell us more about what this program is and what their 
goals are.
    Governor Romney?
    Governor Romney. Well, our desire with Achieve is to help 
us understand in what ways we can make specific reforms that 
improves the performance of our kids. They are obviously 
attracted to the fact that we have an--we call it MCAS, 
Massachusetts Comprehensive Assessment System, that allows us 
to evaluate different kids at different levels. By having that 
kind of information, they are able to look at our kids and see 
where we are succeeding and see where we are failing.
    It is their desire to help us implement a whole series of 
programs that will provide better teaching and provide the 
kinds of better schools that our kids need. We are particularly 
interested in math and science, where, I think particularly in 
science, we have fallen behind as a Nation. I am sure that is 
true for our State as well as other States.
    We have introduced a request and our State board of 
education has approved it to improve our graduation exam, not 
just math and science but also--excuse me, not just English and 
math, but also science and make that part of our graduation 
requirements. Achieve is part of a data-gathering effort that 
will help us identify ways we can improve our system.
    Chairman Boehner. You know, there is a great deal of 
debate, as I mentioned earlier, about what the role, what role, 
if any, the Federal Government should play in high school 
reform.
    I guess I would like to ask both of you, and I will start 
with Governor Vilsack, what role, if any, do you see the 
Federal Government playing in the reform of our high schools?
    Governor Vilsack. Well, Mr. Chairman, first of all, let me 
agree with your assessment at the beginning of this hearing 
that President Bush was appropriating--and it was appropriate 
for the President of this Nation to call the Nation's attention 
to this issue, if I may just give one statistic that can be 
applied to virtually every State in the country.
    If you were to take 9th graders in my State and you were to 
track them for the next 4 to 6 to 10 years, here is what you 
would find for every 100 9th graders. Eighty-three of those 100 
9th graders would graduate from high school in 4 years.
    Of the 83 that would graduate, 54 would go on to college of 
some kind within a year after graduation. Of the 54 that would 
go on to college, 37 would be in college the second year. Of 
the 37, 28 out of the original 100 would have graduated from a 
2-year program within 3 years or a 4-year program within 6 
years.
    Governor Romney, is absolutely correct. This is our Sputnik 
moment. The challenge to America is significant and great and 
unlike any economic challenge we have faced before. The answer 
to it is for our Nation to be as innovative and creative as we 
have been in the past. To do that, we are going to have to be a 
lot smarter.
    So the role of the Federal Government, first and foremost, 
is to call the attention of the Nation to this issue. We are 
currently having meetings in our school districts with our 
State Board of Education director and with our Secretary of 
Education to encourage schools to adopt a much more rigorous 
curriculum with additional requirements for math and science.
    Teachers get it, administrators get it. School board 
members get it. Parents do not. Parents are reluctant to have 
their students take more rigorous courses. They are concerned 
about the grade point average. They are concerned about the 
ability to obtain a scholarship. They are concerned about the 
conflict with work or sports or other activities. It is going 
to be essential for the Federal Government to help States get 
the attention of parents on the importance of this.
    Second, very frankly, it is important for the Federal 
Government to keep its promises. If you are going to require us 
to expand access to education for special needs children, or if 
you are going to require us to do what No Child Left Behind is 
currently requiring us to do, then clearly States and school 
districts have to have the resources, hold us accountable for 
sure, but make sure the resources are there.
    Then finally, I think there are special opportunities that 
the Federal Government can use to put specific emphasis and 
focus on math and science, and particularly encourage young 
people to pursue careers, and you might look, as you look at 
tax issues and tax credit issues, a mechanism and method for 
increasing scholarships or grants in those areas, those would 
be three suggestions.
    Chairman Boehner. Governor Romney.
    Governor Romney. Mr. Chairman, any Governor is going to 
always be anxious to talk about more money. Far be it for me to 
say we don't need more money.
    But I must admit, when it comes to education, I believe the 
primary responsibility for funding our schools is at the State 
and local level. That doesn't mean I don't want to get as much 
funding as I can from the Federal Government, of course.
    But I would rather have you solve our Medicaid problem 
first, and then we can deal with our schools. But with regards 
to education, those things that we really can benefit from 
relate to what we have done with No Child Left Behind. I must 
admit that, having seen the impact of our State exam program, 
and we begin in elementary school, we go on through high 
school, we have a graduation exam and so forth, as I have 
described.
    Having seen that impact on the development of curricula 
across our State that more and more of our teachers are 
applying, the preparation of students who have great interest 
in rigor, after-school programs for kids who are falling 
behind, summer school programs. When I see the impact on the 
quality of education that this testing is having, I appreciate 
the fact that the Federal Government, by instituting No Child 
Left Behind and demanding accountability, has had enormous 
impact on the entire Nation and improving our schools.
    That kind of accountability, Sunshined, if you will, that 
you require of our education system, is extraordinarily 
helpful, because we fight at the local and State level efforts 
to try and cloud over what is going on. For years, we have 
talked about whether urban schools are as good as suburban 
schools, but no one really knew.
    Now we have the test data coming out, we can see what the 
problems are. We can see something that is surprising. The 
differences within a district, an urban district, for instance, 
are even greater than the differences between districts. We see 
enormous patterns, and we find what is the real cause of the 
problems we are having in education. That kind of Sunshine is 
leading to solutions that we couldn't possibly have, were it 
not for the imposition, if you will, by the Federal Government 
of Sunshine on what is happening at the State level, and those 
tests and that information is helpful to us to be able to free 
ourselves from the efforts to obfuscate.
    I would also think that the time may come that as we look 
at the data, and we see that certain districts or certain 
States or certain schools consistently are failing, and that 
they seem to be unable to break out of the cycle of failure, 
that there may well need to be specific legislation which frees 
those districts and those schools from the behaviors which keep 
them from being able to succeed.
    I am reminded of a number of things that happened in my own 
State. We have, for instance, a desire on the part of many of 
our teachers, to become part of a charter school-type program. 
We have an opportunity to establish charter schools in our 
State. We have about 50 of them. One of our schools in the 
Boston School District said they wanted to be freed of the 
union work rules and so forth and wanted to turn themselves 
into a charter school-like entity, it is called a pilot school 
in our system. The faculty of the school voted 97 percent in 
favor of becoming a pilot school, a charter school, if you 
will. But the teachers union, which has a veto, said no, you 
can't.
    So there may be occasions when government is going to have 
to be able to step in and allow the faculty to become truly 
professional to allow them to take the course, as Governor 
Vilsack says, to have an awareness of the local needs and to 
tune the local needs of the school with the capabilities of the 
management, the leadership and the faculty.
    Chairman Boehner. I have a lot of other questions, but just 
so that all the members know, the Governors have some time 
constraints at about 11:30. It is expected that we may be 
voting even before that.
    So I would urge members to be as concise as you can.
    With that, I will yield to Mr. Miller.
    Mr. Miller. Thank you, I am just going to be brief because 
I would like to yield the remainder of my 5 minutes to Mr. 
Tierney.
    First, I just want to say that when we did No Child Left 
Behind, let us understand that we are making a major 
contribution to low income schools and the question for us was 
were we going to continue to spend the tens of hundreds of 
billions of dollars, and what is the return we are going to get 
on our investment?
    In the case of the high schools, we have no history of that 
involvement. We are not protecting an investment there. I 
think, as Governor Vilsack pointed out, we would do well for a 
while here to pay great deference to what the Governors are 
doing, what individual districts are doing, what the States are 
doing to make these determinations on how to improve this. Then 
if we want to come along and initiate a new Federal investment 
in those efforts, we might do it on a well-informed basis, with 
some experience preceding us, as opposed to dropping down a 
high school version of No Child Left Behind on top of this 
effort, with no real resources.
    This is not a $1 billion effort if you drop those kinds of 
requirements down on top of your systems. This is big-time 
trouble. I think we would do well to think about the Governor 
sort of ramping this up, looking for those pathways. Then the 
question would be for us in a short period of time, do we want 
to make this kind of Federal investment to help those efforts, 
to supplement those efforts and to grow those efforts.
    With that, I would like to yield the remainder of my time 
to Mr. Tierney.
    Mr. Tierney. I thank the gentleman, and I thank the 
Governors for your testimony. I think both of you were very 
clear that the major factor we are dealing with here is the 
quality of teachers. I don't think any of the information that 
we have received in the last 8 or 9 years has been any 
different than that. But the National Commission on Teaching in 
America's Futures tells us that one out of every three teachers 
is quitting in the first 3 years, that 46 percent are quitting 
after 5 years, 50 percent higher in urban districts. We have 
3.4 million teachers currently, but 2 million are going to 
leave in the next decade. Three times as many will leave from 
attrition as are by retirement. So we have identified that 
problem.
    The answer, from what we have heard and testimony from 
people here and papers, whatever, is we have to make teaching 
more financially rewarding. So I think we can't do that without 
money, obviously in some sense, but we also have to make it 
intellectually more satisfying as an experience, more 
professional.
    You have talked about that. I don't think that the answer 
necessarily lies in bashing teachers or even their unions. But 
there are a number of good examples around the country where 
people have used collective bargaining but also had a system 
put in place that solves the hard distinctions between labor 
management and cooperation. They discuss and negotiate topics 
like differentiated pay, teacher responsibilities for peer 
evaluation processes, teachers having a key role in the 
remediation process, full partnership in the process, 
mentoring, classroom coaching and observation, allowing time 
for cooperation to align curriculum and improving teaching 
techniques, designing and delivering instructions, supporting 
the use of delivering data to drive the student's education, 
all of those things.
    What are your States respectively doing to encourage those 
efforts of joint union and district work like they are doing in 
Denver or at the University of Pennsylvania's Operation Public 
Education or in Toledo, Annenberg, people like that.
    Governor Vilsack. Four years ago, the State of Iowa 
recognized the crisis in the teaching profession. We made a 
commitment to establish a Teacher Quality/Student Achievement 
Program. The first step in this process was to make sure that 
our beginning salaries were more competitive, but also to 
combine that with a mentoring effort, a 2-year mentoring 
effort. In Iowa you cannot be fully licensed--completely 
licensed and certified as a teacher until you have completed a 
2-year mentoring program and have been successfully evaluated 
as having completed that program.
    If you fail in that 2-year period, you may be given 1 more 
year. If at the end of that third year you are still not 
performing based on the evaluation, then you are no longer able 
to teach in the State of Iowa.
    Obviously, if you complete that evaluation, you then get 
your full-time certification and license, and you are free to 
continue teaching. This has been an enormously successful 
program. It was adopted with the assistance and help of the 
Iowa State Education Association.
    They were very interested in my State in making sure that 
there was support for young teachers. It is creating an 
environment with the mentoring and the professional evaluation, 
of really helping teachers get through that first couple of 
years. It is very difficult. My wife is a classroom teacher. 
Every teacher has a difficult time in those first couple of 
years.
    The second thing we did was to establish a career path for 
teachers that was not based solely on seniority--but that 
through professional development and life experiences, if you 
could establish that you were in fact a better, more successful 
teacher, then you would be entitled to receive additional 
compensation sooner than you might have otherwise received 
through a collective bargaining agreement. Once again, the 
Teachers Association was cooperative in allowing us to set that 
up.
    Finally, we began an experiment with variable pay in which 
school districts could set goals. If the goals were reached, 
the State would provide additional resources for that year and 
that year only, which could then be distributed to all the 
teachers, the administrators, even the support staff as an 
incentive for higher performance.
    Governor Romney. Well, I would love to have some of those 
things in our State. Those are wonderful reforms, and I think 
would have an enormous impact on the teaching profession.
    Let me note to Ranking Member Miller, as well, that one of 
the great things about No Child Left Behind, if you will, just 
the test itself, we are more than happy to get money--and the 
more the merrier--but the testing doesn't cost very much. It is 
very small dollars compared to our total education budget.
    Just having testing, even if we have to pay for it--and in 
our State we have been doing it since before No Child Left 
Behind came along. It is not much money. The key is to decide 
to do the testing and then to take action as a result of that 
testing. With regards to our faculty and our members of our 
teaching profession, making teaching a profession and 
increasingly feel like a profession is something I would 
support and Governor Vilsack said is happening in Iowa.
    People who are thinking about going into a profession think 
that if they particularly do well, they will get opportunities 
for advancement. They are not going to be in this little silo 
themselves for their entire career, but they may be able to 
mentor other teachers, be responsible for a department or an 
area of inquiry.
    They look for opportunities to grow and develop, teacher 
development. They would expect that if they do develop that 
they could get better pay, that their compensation will be 
linked, not to just how long they are in a position, but 
whether they are a superb performer, whether they take on 
responsibilities, for instance, in managing or mentoring other 
teachers. They look for opportunities for leadership.
    There are some who, I am sure as they begin their career, 
don't think about going into a setting where they don't have 
that kind of flexibility to try different roles and to be 
promoted based on their ability, and to get compensated based 
on their ability who would look, if you will, at the factory 
worker approach and say that is not what they want for their 
life.
    There are very few people who think of a profession as 
something where their performance will be irrelevant to their 
compensation or their promotion, and they want the opportunity 
to succeed and grow and develop and that is one way we can make 
teaching a greater profession.
    I think that teachers, as well as administrators, feel that 
there is a need to be able to remove the poorest performers 
from the system. At the same time, we advance the very best 
performers and give them better compensation, better 
responsibility.
    This is something which is underway in one of our cities. 
The city of Springfield has a real crisis in our school setting 
and a financial crisis. We are working together with the 
teachers union to help provide those kinds of tools and 
flexibility. I do hope that our union movement and our 
government effort will come together to find ways to give 
teachers the kind of flexibility, promotion opportunity, 
management opportunity and compensation opportunities that are 
consistent with being a true profession.
    Mr. Tierney. Governor, if I may just follow up on that.
    Mr. Castle. [Presiding.] Mr. Tierney, these gentlemen have 
to leave in 25 minutes. If we could go on to a few others. 
Great questions.
    Before I turn to Mr. McKeon, I would like to welcome you as 
one who has worn your shoes for a while as Governor. I 
understand the problems you have. I think both of you have done 
a great job. I follow what you have done.
    In Mr. Vilsack's case, we chair an alma mater, so I follow 
carefully what he has done. You have done an excellent job 
here. We are delighted to have you there.
    With that, I recognize Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. I thank both of you 
for being here today in this very stimulating discussion. I 
just led a Congressional trip with three of our members, we 
went to China, we went to Beijing, we went to Shanghai and Hong 
Kong. The concern was where we are going to be in the next 10 
years, 20 years, 30 years, and I have big concerns.
    You have talked a lot about professional teachers and the 
career as a profession. I think there is a great ideal that as 
Governors, as you mentioned, you would like to have some of 
those reforms that Governor Vilsack has in Iowa. I would love 
to see them in California. I served on a school board out there 
for 9 years. We had union, and we had tenure.
    One of the things that really bothered me is you could have 
a teacher in one classroom doing a fantastic job and everybody 
knew who it was. The parents that wanted their child in that 
third grade class of Mrs. Johnson was because Mrs. Johnson was 
doing a great job. They didn't want their student in the class 
next door because, frankly, that teacher wasn't doing a great 
job, whether that teacher happened to be the first or second 
year or a 20-year burned-out teacher. It was a real problem. 
They could have both been making the same money the way pay was 
determined in California, if you taught for a year, your pay 
went up.
    If you took an educational class during that year, your pay 
went up, and they had steps and columns. It was just automatic 
for 15 years, whether you were doing a good job or not, just 
because you showed up or sometimes didn't even have to show up, 
get a substitute. But that is a big concern. If we are going to 
compete with China, with India, with the future, we really have 
some big problems.
    You talk about parental involvement. I don't think it is 
shameful. When I was a kid, I didn't want my parents there at 
high school. When I was on the school board, I noticed that had 
not changed much. Parents are very involved, usually at 
elementary school. They get a little older, the parents--the 
children kind of are embarrassed when they are there. But it is 
very important.
    They pointed out to us in China you have one child, two 
parents and four grandparents all focusing on that one child 
getting a strong education. How do we--how are we going to be 
able to compete. How are we going to overcome some of the 
impediments that we placed on ourselves and how are we going to 
stir these parents and grandparents to put that same kind of 
emphasis in our country to require that kind of education for 
our children?
    Governor Romney. Well, first of all, we need to pay our 
better teachers more money, and I believe that there is a 
compromise to be reached in saying, look, we are happy to pay 
more for education and pay more for our teachers, but we want 
to make sure we are paying to the ones that are doing a really 
great job. Your example of Mrs. Johnson. She had to get more 
money. Whoever it was who are trying to get their kids out of 
the class ought to be out of the school system, or getting less 
money, one or the other, or being mentored by Mrs. Johnson, who 
is being compensated for that extra time mentoring.
    So we had to treat teachers like a profession. I know of no 
profession where you all get the same money and the same 
opportunity regardless of your performance. So let us make 
teaching a profession again. We are going to be spending in my 
State, hundreds of millions of dollars more on education per 
year, as we go down the road here. Our tax revenues are rising, 
our economy is coming back, we will be investing in education. 
But let us not just pay the same people more money to do the 
same.
    Let us pay more money to do the very best, to attract the 
very best and assure that we have the kind of teaching quality 
that our kids deserve. With regards to parental involvement, 
one of the things we have learned that as kids come into the 
school system at the very early ages, some parents really don't 
have an understanding of the importance of education.
    Some of our parents who have been through college and 
beyond, they know how important those early years are, and they 
are working with their kids to read and keep them up to date. 
They get a little overnervous if their child is not moving 
along quickly. But other parents who haven't had that 
experience--and maybe come from other cultures--don't 
necessarily understand the power and impact of education and 
what a key role the parent plays.
    So we have proposed that prior to the child even showing up 
to kindergarten, that the parent attend a mandatory preparation 
course, over several weekends, describing the importance of 
education what kind of TV the kids could watch that is helpful, 
what TV is not helpful, how to get books where local after 
school programs are available for them and the like.
    Then throughout the child's educational experience, bring 
those parents back to the school for preparation courses and 
link certain State benefits to the participation of those 
training programs. Look, we are going to provide 12 years of 
education to a child at State or taxpayer expense.
    The parent can, at least, give us a couple of weekends a 
year to come in and learn what is happening with their child 
and how they can support that child in the educational 
experience. We have focused that exclusively at our schools and 
our school districts that are in the bottom 10 percent. We are 
not going to worry about the top 90 percent. We are just 
working on those school districts that are in trouble, really 
pulling those parents in.
    Governor Vilsack. If I might add to Governor Romney's 
comments, in Iowa we have a program called Community 
Empowerment. We have guided the State into 58 State districts. 
We are empowering people at the local level to ask the 
question, what do we need to make sure that our children are 
learning and ready to succeed?
    It starts really at birth. We have hospital visitation, 
home visitation programs that begin a process of encouraging 
people to understand the power they have as their child's first 
and best teacher, they should be empowered to know that. They 
should be able to have the tools to do that. We have seen with 
doing that that parents become more engaged, not just 
elementary school, but beyond.
    Second, I think all of us, political leaders in this 
country, have a moral responsibility to educate the Nation 
about the challenges we face. You have seen it with your own 
eyes, you have experienced it but not every American has. It is 
as important to this Nation as any other issue that you will 
talk about. Our economic security, our overall security is tied 
to our ability to have a strong vibrant economy which, in turn, 
is connected to our ability to be innovative, which requires us 
to be the best-educated Nation in the country, in the world. We 
are clearly, clearly not there, and we must be there.
    The last thing I would say is, I think it is also important 
that we not only focus on teachers and their professional 
development, but also the administration, principals and 
superintendents. They, too, need to be educated as to how to 
accurately and adequately evaluate so you can differentiate and 
you can document who is doing the job and who isn't doing a job 
so that you are in a position for those who are not doing the 
job to help them or get them out.
    Our system of stopping people early in their career and 
directing them in some other direction may, I think, have long-
term benefits, but I think in the meantime, we need to beef up 
our administrative support.
    Mr. Castle. [presiding] Thank you, Mr. Kind.
    Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    Governor Vilsack, I was very happy to hear you use the 
world ``moral,'' because I do think we have a moral 
responsibility to our young people.
    Now, Governor Romney, I served in the Michigan Legislature 
when your dad was Governor, until he became Secretary of HUD.
    Without your dad, open housing never would have passed in 
Michigan. Your dad provided great leadership for one of the 
strongest open housing bills in Michigan. I worked very closely 
with him, and with him, that was a moral thing also.
    By the way, he never vetoed a bill of mine either, which 
was very nice.
    Mr. Miller. That is a tough test.
    Mr. Kildee. He vetoed some bills, but not mine. One of the 
most important things was that he was one of the most decent 
men I have ever met in my entire life, and I really enjoyed 
working with him.
    It is good to have you here this morning, Governor. My son 
is a constituent of yours that lives in Somerville right 
outside of Boston. I have often said that education is a local 
function, a State responsibility, and a very, very important 
Federal concern.
    It is a Federal concern for two obvious reasons: One, we 
live in a very mobile society; some educated in Michigan may 
wind up in Arizona, and vice versa. And also, we are competing, 
as you two have pointed out, in a global economy, and the 
competition is becoming more fierce. Is the Federal Government 
properly playing its part in that training triangle, and what 
more should we do or not do to carry out our responsibility?
    We will start with you, Governor Romney.
    Governor Romney. Well, again, in my view, one of the key 
things is to shine the light on whether or not we are being 
successful at the State level or not. As you pointed out, the 
Federal Government exercises concern, and as Governor Vilsack 
just said, our national security, our economic security depend 
upon our having a workforce which is the most innovative and 
skilled in the world. And if we don't, we will become a Tier 2 
economy, and a Tier 2 economy cannot have a Tier 1 military. 
Russia tried it. We called their bluff, and they folded. And we 
absolutely have to have the best schools, best teachers and 
best kids in terms of their skills and technical capabilities 
in the world if we want to remain the leader of the world.
    And so it is a national concern, a national priority, to 
see how we are doing at the State level and to insist that our 
standards are high. And that is why I believe that what you 
have done with No Child Left Behind is beginning to gather the 
information and to say, where are the problems here; how do 
they stack up one school district to another? And I applaud 
that effort and encourage you to continue it and to continue to 
ask for more and more information about how we are doing, 
because if we are leaving thousands, hundreds of thousands, 
millions of kids unprepared for the jobs of tomorrow, that is a 
moral crisis. It is a social responsibility we would have 
failed, and it is also a crisis for our Nation.
    So, for me, I agree with you, because you laid out that 
prioritization of who does what. I agree with that. I don't 
look to the Federal Government to take over the local schools, 
to tell us what to do, to put in place teachers, to pay for 
what we are doing. We can do that at the local level, but I do 
look to the Federal Government to help set the benchmark where 
we can compare to how well we are performing, and, if we are 
not performing, to insist that we do the job or that we suffer 
the consequences at the State or local level.
    Mr. Castle. Thank you, Governor.
    Governor Vilsack.
    Governor Vilsack. Part of the challenge that local school 
districts have in my State is enforcing and implementing the 
Federal mandates of IDEA, No Child Left Behind. And when the 
resources are not adequate to match the mandate, then local 
school districts then have to make choices of diverting 
resources away from other priorities. It is not about more 
money. It can be about less mandates. But it can't be about 
more mandates and inadequate resources. It can't. If you're 
going to do one, then you have to do the other.
    Second, I think this government, this Federal Government, 
really needs to do a lot more to elevate the significance and 
importance of math and science. Governor Romney mentioned 
Sputnik. There was a national effort, there was a national 
goal. People got excited about it. We put research and 
development dollars behind it. We encouraged young people to 
look at careers in science. Clearly, we are going to have to 
figure out a way to do that now, because, as Governor Romney 
suggested, the amount of engineers and scientists that are 
being graduated from China and Indian schools far surpass what 
we have in terms of total number. And it will not be long 
before the gap that exists today in terms of innovation, new 
ideas shrinks, and we can't let that happen.
    Mr. Kildee. Thank you, Governor.
    Chairman Boehner. [Presiding] Thank you, Mr. Kildee.
    Mr. Osborne, who aspires to be a Governor, is recognized 
for 5 minutes.
    Mr. Osborne. I would hope I do as well as you have done. 
Your testimony has been very impressive and obviously very 
thoughtful, and we appreciate your being here today.
    Just a couple of comments. Governor Vilsack, you commented 
on the importance of dual credit, and that resonates with me 
because I am mentoring a young guy who is a senior in high 
school, and he goes to school at noon because he only needs two 
courses to graduate. And I feel that in some cases the senior 
year has become somewhat of a wasteland for a lot of kids 
because they get their basic requirements done, and then they 
shut down. And it seems that we are almost losing, in some 
cases, a half year there.
    I think your ideas on mentoring of teachers is important, 
and I know it is excellent. The question I have for both of you 
is this: Both of you have mentioned how important it is to 
reward good teachers and good administrators. And I think there 
has been some comments about this, but with the constraints of 
tenure, teachers' unions, would you flesh that out a little bit 
as to how you go about doing that? Because I agree with you 
totally. There is hardly any area of endeavor toward excellence 
where we don't reward the best performance, and yet in the 
teaching profession we often don't. So do you have any further 
comments on that that you could add?
    Governor Vilsack. We began our process 4 years ago, and we 
sat down with leaders of the teacher association and the Iowa 
State Education Association and tried to explain to those folks 
the concerns that folks in small towns have about teacher 
salaries. Clearly, we acknowledge that they were inadequate and 
not competitive, but it is sometimes difficult to make that 
case when the teacher is making more than the vast majority of 
the folks living in the small town who have to pay the bill.
    And so we suggested that the way in which we could help 
elevate the compensation, but also reassure people back home 
that they were going to get results, we were going to tie the 
two together and to suggest that if you mentor a teacher 
successfully, you would be paid and compensated for that, 
because it is an important thing to do, it takes time. We 
suggested that if we develop a career development pathway for 
teachers, that there ought to be some opportunity to be 
professionally evaluated and have that evaluation shared with 
the community, and if you successfully pass that evaluation, 
you would be entitled to go to the next level, the career 1 
level, and then you would be able to go to the career 2 level, 
and then hopefully what you would aspire to is to be a 
nationally board-certified teacher and provide resources and 
incentives to encourage every teacher ultimately to be a 
nationally board-certified teacher.
    We have a long way to go in that respect, but we are 
working toward that. It was a conversation we had in which we 
essentially tried to explain to teachers how folks on the 
outside look at this, how the parents, folks in the small 
towns, particularly in my State, looked at this. And there was 
a general understanding of that and an acceptance of that. And 
then we worked through the process.
    Now, we have to provide the resources, and we need to pick 
up the pace in terms of providing the resources, but we have 
had a good start on the implementation of this plan. We did 
raise minimum salaries. We have seen monitoring work. We have 
seen teacher retention better, and teachers are more satisfied. 
We have more work to do, but I think we are on the right track.
    And let me just, if I might, comment. You are absolutely 
right about the senior year. For bright young people in this 
country, it is a total waste. It is about the prom. It is about 
football. It is about everything but what it ought to be about, 
which is math, science, foreign language, and maybe getting a 
college credit, maybe getting a first year or two of college 
out of the way. So closer relationships between community 
colleges and high schools, between universities and high 
schools to enable these bright young kids, and greater access 
and use of Web-based courses and Internet courses, I think, are 
part of the answer to that.
    Governor Romney. Let me mention a couple of things. First, 
I believe you are going to see a growing willingness in this 
Nation to make adjustments to the teacher profession to improve 
the quality of education that our kids are receiving, in part 
because of No Child Left Behind and the test scores that are 
going to come in.
    Our MCAS exam is showing us which schools are failing, and 
as the minority community leaders see that their kids are 
getting an inferior education, they are beginning to say, why? 
And first the answer came back, well, we need to spend more 
money. Well, we actually--as you saw on the chart, we spend 
more money in our urban districts than we do in the State 
average by a wide margin. So it wasn't money. Then they say, 
well, it is the classroom size. Look at our classroom size. 
They are the same across the State. It is not classroom size. 
It comes down to whether the teachers have the skills to be 
able to manage that school, whether the leaders have those 
skills. It comes down to the elements that I described, and it 
is the African American leaders and Hispanic leaders who are 
saying, we want to change in our schools. We want to have the 
kinds of adjustments that Tom Vilsack has been able to achieve 
in Iowa. We need that kind of flexibility in our teachers' 
contracts to be able to allow those kinds of improvements.
    Let me note something else just because you have raised it, 
and that is we are very focused on leaving no child behind. We 
have to also be focused on making sure that no child is being 
held back. Many of our gifted kids are just held back by the 
average of their class.
    We spend vast amounts of money to make sure no child is 
left behind. Let us make sure we are also spending money to 
push our very brightest students, those that are looking to 
achieve. Those are the Bill Gates of the future, and we need to 
make sure we are investing in them.
    Chairman Boehner. The gentlemen's time has expired. The 
Chair recognizes the gentlelady from New York Mrs. McCarthy.
    Mrs. McCarthy. Thank you, Mr. Chairman, and I thank you, 
Governors, for your testimony. It has been very interesting.
    I was one of those that was privileged to be able to go to 
China, and one of the things we found out while we were there, 
No. 1, the respect for the teachers. But technically they 
actually got very high salaries considering the salary make-up 
of everybody else.
    So one of the other things that I certainly have been 
working on since I first got on to the Committee was the 
mentoring program for our teachers. It was one of the first 
Committees I ever sat on, where we had these teachers that just 
got out of college, teaching maybe 2 or 3 years, and said they 
were very upset with themselves because they didn't feel they 
were qualified to teach, which brings us to higher education 
now.
    I happen to feel very strongly that we are not producing 
the quality of teachers coming out of the colleges, and I blame 
that on the colleges, because you can see some colleges 
bringing out excellent teachers, others not. I happen to think 
there should be standards for all the States on who we 
graduate, who gets into the programs even, and how they 
graduate. But with that being said, and hopefully we will work 
on that, I am very interested in the dual credit, mainly 
because we started a program in my district only with the 
community colleges working with my urban schools, in my 
suburban areas mainly because we want to give certainly those 
students that are coming from underserved schools the 
opportunity to see what college is about. Most of them don't 
even think they could ever get to college. So, the program has, 
No. 1, piqued the interest of the students that were failing 
and dropping out, just being able to see that they can go to 
college, and we have seen their marks improve, and then all of 
them working much harder. So I am hoping that we will see more 
of that for everybody.
    But I guess, Governor, what advice would you give this 
Committee when you are looking to implant a dual credit system 
nationwide, because we are going to be dealing with higher 
education. We are dealing with it now. It is a program I 
believe in.
    I happen to think that most seniors--and I can even attest 
when I was a senior, going back a long time ago, from March on 
it was just playtime. We enjoyed it, but it was a waste of 
time. And even now it is more important than ever, and I 
appreciate your response.
    Governor Vilsack. I think it is really important for the 
community to get engaged and for business leaders in particular 
to have a clear expectation of what is needed for success, and 
to articulate that expectation to the community so that the 
relationship can be developed between what the student is 
learning and what the student will be required to do once he or 
she gets in the workforce or goes to college.
    There needs to be greater communication between the 
university system, the community college system, and the K-12 
system and the workplace. What we did is we established an Iowa 
Learns Council, which is 38 Iowans, and they have suggested 
that we establish a permanent commission, or roundtable, where 
we have those individuals meeting on a regular basis, 
communicating with one another as to what the expectations are, 
because things change, and, unfortunately, sometimes education 
is the last to find out about the fact that things have 
changed, and so the curriculum is not as current as it needs to 
be. It is not as focused as it needs to be. It is not as 
relevant as it needs to be. So there needs to be communication. 
That is the first thing.
    Second, the success of our dual credit program, I think, is 
connected to the fact of how we finance our schools. We have a 
State aid to schools, and it is tied to property taxes and so 
forth. But we add an additional weighted average, if you will, 
for dual-credit courses so that there is an incentive, if you 
will, for school districts to identify youngsters who would be 
in a position to take advantage of dual credit. There is an 
incentive for the school district to reach out to a community 
college or college and establish some kind of scheduling 
process. There is an incentive for us to use our fiberoptic 
system to provide that course and to encourage students to get 
involved in the course. So if you increase the communication 
and make sure that there is an adequate incentive, you are 
going to see the marketplace, if you will, of education move to 
that and embrace that.
    The last thing I would say is we need to make sure that the 
expectations for our children are high for all of our children, 
and one of the benefits of the JAG program for these youngsters 
who are most likely to drop out is that it actually puts 
someone in the school whose responsibility it is to take care 
of those 30 or 40 kids. It is not a school official. It is not 
a teacher. It is someone who is from JAG. It is a public/
private partnership financed publicly and privately in 
combination. That person's sole responsibility is to make sure 
that youngster understands they are supposed to be in school, 
they are supposed to attend class, they are supposed to pass 
the courses, and to raise the expectations for these 
youngsters. And these kids respond to that. They respond to 
that challenge.
    We have a relatively small State, so I am not sure you can 
do across the Nation what we do in our State. I say small in 
terms of geography, not number of people. But we have 25 
different State, community and university campuses across 
Massachusetts, and as a result of that, we are pushing very 
hard to allow our students to be able to attend actually on 
campus the dual-registration classes, and this allows them to 
have a college experience, begin interacting with college kids 
and to recognize that their future may well include college.
    We have got a lot of kids, particularly in an urban 
setting, that don't realize that really college should be the 
next step following their high school education. Advanced 
placement is a help, but actually being able to attend class on 
college campuses really opens the door to them, with the 
familiarity of what a college experience is like. And we 
believe it is helping our kids increase the percentage that are 
going from our high schools into college.
    Mrs. McCarthy. I thank you for your testimony.
    Chairman Boehner. Let me thank the Governors for your 
willingness to come down and share your thoughts with us. As 
you can see, Members are scattering because we have got several 
votes on the House floor. But I thank both of you, and tell my 
colleagues that are remaining and others that there will be 
additional hearings on this subject in the future, and we hope 
to learn more. Thank you.
    [Whereupon, at 11:25 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]

Statement of Hon. Ruben Hinojosa, a Representative in Congress from the 
                             State of Texas

    I would like to thank the Chairman for calling this hearing on high 
school reform. This is a conversation that is long overdue in our 
committee.
    There has been a growing consensus across the country--from 
statehouses to the White House and the halls of Congress--that we need 
to take dramatic steps to improve our secondary schools. Currently, 
only 70 percent of our high school students earn diplomas with their 
peers, and less than one-third of our high school students graduate 
prepared for success in a four-year college. For Hispanic and African 
American students the graduation rate drops to 50 percent and the 
college-ready rate drops to less than 20 percent.
    Our success in reforming high schools will require a long-term 
commitment from all of the stakeholders.
    First, we must meet the challenge of adequately financing our 
schools. For too long, we financed our schools in a way that has 
systematically left large segments of our population behind. Many 
states, my own state of Texas included, are struggling with school 
finance.
    Second, the federal government must step up--not by shifting 
resources but by bringing added value that will and help states and 
school districts address the needs of those students and communities 
that require targeted and concentrated resources to close the gaps in 
educational attainment.
    That is why I introduced H.R. 547, The Graduation for All Act with 
my colleague Susan Davis of California. The Graduation for All Act 
provides states with the resources to target the school districts with 
the lowest graduation rates. Funds are to be used to establish literacy 
programs at the secondary school level and provide on-site professional 
development for high school faculty through literacy coaches. 
Additionally, this legislation provides resources to schools to develop 
and implement individual graduation plans for the students most at risk 
of not graduating from high school with a diploma. Finally, the 
legislation strengthens accountability for graduation rates. We cannot 
call high school reform successful if only half of our students benefit 
from increased rigor and raised expectations because the other half 
never make it to graduation. In our accountability system, the standard 
must be that every student graduates.
    Finally, we need a coordinated, national effort to improve 
secondary schools, leveraging resources from all stakeholders: school 
districts, local governments, states, philanthropic organizations, 
corporations, community-based organizations, and the federal 
government.
    I am hopeful that with the national attention that the nation's 
governors are bringing to secondary school reform, the president's 
commitment to address high schools during his second term, the 
investment made by major foundations such as the Bill and Melinda Gates 
Foundation and the Carnegie Foundation, and our efforts in the 
Congress, we will find the will to put in place the policies and 
investments necessary to ensure that all of our students are able to 
attain a high school diploma, preparing them for postsecondary 
education and careers.
                                 ______
                                 

Statement of Hon. Dennis J. Kucinich, a Representative on Congress from 
                           the State of Ohio

    I am pleased we will today hear from the Governors of Massachusetts 
and Iowa on what measures they have found useful in reforming high 
schools in their own states. I am especially pleased that Governor 
Vilsack has highlighted the importance of vocational education and its 
role in high schools. High school reform is an important piece of the 
puzzle ensuring that our nation's young adults are able to succeed in 
their chosen career path. The goal of high schools should be to prepare 
students for the next step in their lives, whether that be continuing 
on to college or beginning a vocational training program.
    First, we must work to ensure that students graduate from high 
school. Recent statistics reported by the Harvard Civil Rights Project 
show that only 68 percent of students who entered the 9th grade 
graduated in the 12th grade. Minority students were even less likely to 
graduate. In today's economy, a high school diploma has increasingly 
become a minimum requirement for workers. We must address issues that 
keep students from graduating and get diplomas in their hands.
    Students, regardless of background, should also know the options 
they have after graduation. The knowledge of training programs, entry 
requirements for universities, and financial aid options is invaluable 
for both students and their parents. Course work must effectively 
engage and challenge students, continuing their academic growth and 
building upon their foundation of skills. Students of all levels should 
make progress in their studies.
    Our nation is diverse and so are the students in our high schools. 
There is no ``one size fits all'' for high schools or the students in 
them. Reforms for high schools should both recognize and employ that 
fact and aim to ensure that all students graduate from high school and 
are prepared for the next step in lives.

                                 <all>

</pre></body></html>
